HHS/OIG-Audit-"Review of Grant No. 07-CY-0485 ACF Discretionary Grant"(A-07-01-01052)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Grant No. 07-CY-0485 ACF Discretionary Grant for the Period 09/01/1997
- 08/31/2000," (A-07-01-01052)
November 7, 2001
Complete
Text of Report is available in PDF format (425 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Grant No. 07-CY-0485, a discretionary
grant awarded by the U.S. Department of Health and Human Services  Administration
for Children and Families (ACF).  Youth Emergency Service (YES) received a
basic center grant totaling $519,000 to administer a program for runaway and homeless
youth.  The grant period was September 1, 1997 through August 31, 2000.  Our
objectives were to assess the achievement of the grant objectives and to determine
compliance with grant terms and conditions.  We found that YES was able to
materially accomplish the grant objectives.  However, they did not fully comply
with the grants terms and conditions.  Progress reports were not filed
promptly according to instructions issued by ACF officials.  YES did not comment
on our conclusion and recommendation.